 

SUPREME COURT OF THE UNITED STATES

Supreme Court Case No. 20-583

 

 

Mitzi Elaine Daitey y, Altorney Grievance Commission of MD
(Petitioner) (Respondent)
1DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.

Please check the appropriate boxes:

| Please enter my appearance as Counsel of Record for all respondents.

Oi There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

 

f) Lam a member of the Bar of the Supreme Court of the United States.

 

O Lam not presently a er of the Bar offs Court. 9)

Id a response be requested, the response
will be filed by a Bo member.

Signature.
are, 12/3/2020
ate:

(Type or print) Name Michele J. McDonald

O My. 0 Ms. CO Mrs. C Miss
Firm Olfice of the Attorney General

‘Address 200 Saint Paul Place

A

+

 

 

; ; >
City & State Baltimore, Maryland zip 2120
Phone 41 0-576-6576 Email mmcdonald@oag.state.md.us

A COPY OF THIS FORM MUST BE SENT TO PETITIONER’S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENTS) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

Ce: Ms, Mitzi Elaine Dailey, The Dailey Law Grp., P.O. Box 22297, Baltimore, MD 21203

 
